                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 800.233.5874
                                                                                            Online Contact Form
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          March 18, 2013

Subject:       Final Report on the Audit of Peace Corps/South Africa
               (IG-13-03-A)

Transmitted for your information is our final report on the audit of Peace Corps/South Africa.

Management concurred with all 12 recommendations. The 12 recommendations will remain
open pending confirmation from the chief compliance officer that the documentation identified
in management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix D, address these matters. Please respond
with documentation to close the open recommendations within 90 days of receipt of this
memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Hal Nanavati at 202.692.2929.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Joseph Hepp, Chief Financial Officer
        Samuel Taylor, Budget Officer
        Paul Shea, Director of Global Accounts Payable
        Dick Day, Regional Director, Africa
        Alyssa Karp, Chief Administrative Officer, Africa
        Edward Hobson, Associate Director, Safety and Security
        Brenda Goodman, Deputy Associate Director, Volunteer Support
        Kathy Rulon, Acting Director, Office of Global Health and HIV
        John Jacoby, Country Director, South Africa
Jeffrey Prickett, Director of Management and Operations, South Africa
Jennifer Parrish-Taylor, Special Assistant to the Chief Compliance Officer
South Africa Country Desk
    Peace Corps
    Office of Inspector General




Peace Corps/South Africa Office                   Map of South Africa




                           Flag of South Africa



             Final Audit Report:
           Peace Corps/South Africa
                           IG-13-03-A
                                                                 March 2013
                                    EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an audit of Peace Corps/South Africa
(hereafter referred to as “the post” or “PC/South Africa”) from June 25 to July 6, 2012. At the
time of the audit, the post had three U.S. direct hires, five foreign service nationals, one third-
country national contractor, and 38 personal services contractors. The post serves as a significant
regional medical hub for the Africa region and in fiscal year (FY) 2011 received 39.8 percent of
all medically evacuated Volunteers worldwide. The post’s FY 2011 budget was approximately
$6.31 million, plus an average of $460,000, to account for the salaries and benefits of USDHs,
which is centrally-managed by the Africa region at headquarters (see Background section).

We found that the post’s financial and administrative operations required improvement in a
number of areas and did not fully comply with agency policies. Specifically:

        The post did not implement safeguards to secure medical supplies and did not fully
        implement the agency’s policy for receiving, dispensing, and maintaining an accurate and
        complete inventory of controlled substances and specially designated medical supplies.

        The post did not maintain accurate and current personal property records. The post did
        not provide adequate oversight over the property sold via auction and did not collect the
        sale proceeds in a timely manner.

        The post did not adequately control access to the cashier cage and imprest funds.

Our report contains 12 recommendations, which, if implemented, should strengthen internal
control over tracking of medical supplies, managing property and vehicles, and safeguarding
imprest funds and correct the deficiencies detailed in the accompanying report. Management
concurred with all 12 recommendations. All 12 recommendations will remain open pending
documentation described in Appendixes C and D.




Final Audit Report: Peace Corps/South Africa                                                        i
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY.............................................................................................................. i

BACKGROUND .............................................................................................................................. 3

AUDIT RESULTS ........................................................................................................................... 3
          MEDICAL SUPPLIES ...................................................................................................................................... 3

          PROPERTY MANAGEMENT ............................................................................................................................ 6

          IMPREST FUNDS MANAGEMENT ................................................................................................................... 8


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .............................. 10

LIST OF RECOMMENDATIONS............................................................................................. 11

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 12

APPENDIX B: LIST OF ACRONYMS ..................................................................................... 13

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT .. 14

APPENDIX D: OIG COMMENTS ............................................................................................ 20

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .......................................... 21
                                               BACKGROUND
OIG conducted the audit of the post June 25 to July 6, 2012. We previously performed a follow-
up audit May 6-16, 2008 and issued our report in July 2008 (IG-08-11-FUA).

The first group of Volunteers arrived in 1997 and since then over 1,100 have served in South
Africa. At the time of our audit, 179 Volunteers, including eight Peace Corps Response
Volunteers,1 were working in the education and health program sectors. The post’s FY 2011
budget was approximately $6.31 million. The Africa Region at headquarters incurs an additional
$460,000 per overseas post.2

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.



                                           AUDIT RESULTS
MEDICAL SUPPLIES

The post did not implement safeguards to secure medical supplies and did not fully implement
the agency’s policy for receiving, dispensing, and maintaining an accurate and complete
inventory of controlled substances and specially designated medical supplies.

The Peace Corps Manual section (MS) 7343 states that:

        It is the policy of the Peace Corps to maintain effective controls and procedures that govern the
        procurement, receipt, storage, inventory, dispensation, and disposal of medical supplies and to adopt and
        implement special standards applicable to controlled substances.

        The Country Director (CD) is responsible for providing an appropriate working environment for the
        operation of the post Medical Office. The CD is responsible for the physical security of the Medical Office
        and to assure that effective controls for medical supply management are in place through appropriate
        segregation of duties, secure storage, and periodic inventories.




1
  Peace Corps Response is a program for returned Peace Corps Volunteers and highly skilled professionals to
volunteer for short-term assignments at posts.
2
  The agency was unable to provide the total cost per post as certain costs are centrally-budgeted and managed by
headquarters offices including the salaries and benefits of U.S. Direct Hires. The Peace Corps Office of Budget and
Analysis provided the total cost of $12 million incurred by the Africa Region in direct support of its 26 overseas
posts in FY 2011, which is an average of $460,000 per post.
3
  MS 734 was updated in December 2011 with implementing procedures in Medical Technical Guideline 240,
October 2011.


Final Audit Report: Peace Corps/South Africa                                                                          3
At the time of our audit we identified several controls that need to be implemented or
strengthened including: securing and storing of controlled substances and specially designated
medical supplies4 and records, maintaining accurate and complete inventory records of medical
supplies, and separating duties.

Securing Controlled Substances and Specially Designated Medical Supplies. The post did
not adequately secure the pharmacy and restrict its accessibility. The pharmacy door remained
unlocked throughout the day, allowing easy access to medical supplies, including controlled
substances, to unauthorized persons.
                                         Figure 1. Unlocked Pharmacy Door




The controlled substance cabinet was not bar-locked, as required by MS 734, and controlled
substances marked for disposal were kept in an unlocked plastic bin on the pharmacy floor.
This control deficiency increased the post’s risk for theft, loss, and abuse of medical supplies
vital for providing healthcare to Volunteers.

Accuracy of Medical Records. The post did not use the Office of Medical Services (OMS)
prescribed spreadsheet to track medical inventory. Instead, the post developed a Microsoft
Access based medical records and inventory system. Although a medical database could be
beneficial, during our limited review of the system and data entry processes we noted that the
medical inventory book balances were inaccurate. We identified the following issues:

        The system lacked basic controls, such as the ability to: restrict user roles to implement
        separation of duties, limit access to enter transactions and modify data tables, and enter
        disposals, and correct and reconcile inventory balances.
        The post had not developed a standard operating procedure or user guide for the system
        and did not provide adequate training for staff to operate the system.

4
 Specially designated medical supplies are items that Peace Corps deems to be high value, pilferable, or otherwise
deserving of special attention.


Final Audit Report: Peace Corps/South Africa                                                                         4
        Due to lack of adequate training, staff was not properly completing data entry steps for
        recording receipt and dispensing of medication in the system.
        The system roles and responsibilities, for example recording of receipts and disposal,
        were not clearly communicated to the staff.
        Inventory book balances were inaccurate; medication transactions were either entered
        incorrectly or not at all.
The post’s most recent inventory workbook was submitted to OMS in April 2012 without
recording the transaction detail activity of controlled substances and specially designated
medications.

Controlled Substances. The post did not maintain a Drug Enforcement Agency (DEA) log book
for two recently disposed controlled substances. The post did not have documentation to support
how these controlled substances were acquired and the reason for their disposal. MS 734 states
that:

        Each Medical Office must maintain, on a current basis, a complete and accurate record of each controlled
        substance’s dispensation or disposal. Records for all controlled substances must also be maintained in a
        separate DEA Log with secure pages.

We noted an instance where only the acceptance point clerk signed the receipt for controlled
substances, without signature of the Peace Corps medical officer (PCMO) to indicate they
witnessed receipt, in accordance with Peace Corps policy. The acceptance point clerk recorded
the individual controlled substances received in the receipt log, but entered the entire shipment
by invoice number only. As a result, it was not possible to identify the quantity of individual
controlled substances received by the post.

Separation of Duties. According to the Medical Technical Guidelines 240, the CD shall appoint
a non-medical unit staff to medical supply inventory roles. However, we noted that the CD had
not appointed an inventory reconciliation clerk to perform inventory physical counts. Currently
the inventory counts were conducted by the CD. In addition, staff members in the medical unit
who performed duties relating to the medical supplies did not understand their specific roles and
responsibilities as outlined in MS 734 and Medical Technical Guidelines 240. For example, in
April 2012 a PCMO, rather than the CD as the policy requires, submitted the annual inventory.

        We recommend:

        1. That the country director and the post’s Peace Corps medical officers ensure that the
           medical supplies are secured in compliance with Peace Corps policy.

        2. That the country director review the medical supply inventory quarterly to ensure that
           staff record medical supply transactions accurately and completely and that any
           differences noted during the physical count are reconciled and corrective actions are
           taken.




Final Audit Report: Peace Corps/South Africa                                                                       5
        3. That the country director work with the Office of Health Services to determine
           whether the locally developed medical inventory system is beneficial and in
           compliance with Peace Corps policy.

        4. That the country director ensure all controlled substances are properly received and
           recorded in a Drug Enforcement Agency log book.

        5. That the country director clarify the roles and responsibilities of medical and
           inventory staff, separate duties in accordance with Peace Corps policy, develop
           standard operating procedures and provide training to medical staff on the
           accountability of medical supplies.


PROPERTY MANAGEMENT

The post did not maintain accurate and current property inventory records.

During FY 2012 the post acquired a total of 96 new computers, laptops, servers and other
information technology (IT) hardware items. BarTracks, the agency’s real property management
system, should contain all personal property that 1) could contain personally identifiable
information, 2) cost over $500, 3) cost over $100 and is used in a residence, or 4) is highly
pilferable. In addition, the Office of the Chief Financial Officer (OCFO) maintains a list of
capitalized assets for financial reporting that includes all vehicles with costs over $10,000; IT
bulk purchases with cost over $25,000; and any other property with cost over $25,000. The
OCFO asset list contained 214 capitalized assets located at the post.

During our review we determined that the BarTracks and the OCFO asset listing contained
numerous discrepancies and the property records were not accurate and complete. Specifically,

        BarTracks did not include 37 IT assets, including monitors and printers, that were in the
        OCFO asset list.

        The OCFO asset list contained several items that were previously sold including five
        laptops and two uninterrupted power supplies. The post did not provide OCFO with the
        disposal notification for IT equipment that was replaced during the FY 2011 IT
        equipment refresh.

        One desktop barcode number and two desktop computers serial numbers were recorded
        incorrectly in BarTracks.

        Four out of 10 items selected for review at the post could not be located in the BarTracks
        system records.

        One laptop, stolen in March 2012, was still listed in BarTracks and the post had not
        reported the loss to the inventory management specialist or OCFO.



Final Audit Report: Peace Corps/South Africa                                                        6
According to the deputy chief financial officer the list of capitalized assets included the asset
tags and serial numbers provided to OCFO at the time the invoices were capitalized. However to
avoid duplication of efforts, OCFO did not conduct a semiannual verification after August 2011
because the new automated BarTracks system was expected to provide complete asset inventory
information. The issue was compounded when post staff incorrectly loaded inventory data
directly into the BarTracks database tables instead of properly entering the information into the
application using the user screens. As a result, the system could not create a transaction file to
update the accounting records.

Since our site visit, OCFO has been working to reconcile BarTracks to accounting records in an
effort to correct asset tags and eliminate duplicate assets captured across post in BarTracks.

        We recommend:

        6. That the director of management and operations review and verify the information in
           BarTracks to ensure property is accurately and completely recorded.

        7. That the director of management and operations reconcile items in BarTracks with the
           records provided by the Office of the Chief Financial Officer and update key
           information including bar codes, serial numbers, and costs.

The post did not provide adequate oversight of the sale of excess property, did not have a
formal agreement with the auctioneer, and did not collect the sale proceeds in a timely
manner.

The post provided excess property to an auctioneer who conducted nine auctions between
February 2011 and June 2012. During our audit we noted that key controls were lacking.

The post did not did not obtain a receipt of the assets it sent to the auctioneer during FYs 2011
and 2012 and did not reconcile the original list of transferred property with the items remaining
at the auction house. Further, post staff did not observe the auctions, including the vehicle
auctions, and did not request information about the bids received and whether the highest bid
was accepted or not.

The post did not collect the proceeds of sales from the auctioneer in a timely manner. The
auctioneer withheld proceeds from items sold in auctions for over a year and remitted the
proceeds of sale to the post in June 2012. As a result, the post recorded the proceeds of sale from
FY 2011 of approximately South Africa Rand (ZAR) 15,200 ($2,100 U.S. dollar equivalent
(USDE)) in the wrong fiscal year, FY 2012; and permitted the auctioneer to retain Peace Corps
proceeds.

The post collected only 69 percent of the gross proceeds, 5 amounting to approximately 45,069
ZAR ($5,400 USDE) from the auctioneer. The frequency and cost of the auctions significantly

5
 Gross proceeds totaled 64,880 ZAR ($8,000 USDE). The auctioneer deducted 15 percent commission or
approximately of 9,600 ZAR ($1,185 USDE), 12 percent expenses 7,778 ZAR ($960 USDE), and 4 percent for
Value Added Tax 2,433 ZAR ($300 USDE).


Final Audit Report: Peace Corps/South Africa                                                             7
reduced the net gain on the sale of property and vehicles. The auctioneer charged approximately
12 percent of sales for “expenses” and 15 percent of sales for commission. Further, the post did
not obtain support or explanation for the expenses charged and the post had not formally
documented the terms with the auctioneer, preventing it from verifying the validity of expenses
charged by the auctioneer.

The post did not obtain adequate support or establish a proper payment for $2,145 in auctioneer
expenses and commission charges on property and vehicle sales. Instead of establishing a proper
payment with the auctioneer, the post issued a bill of collection (BOC) for the proceeds of the
sale of assets and vehicles at the net cost of expenses and commission. The post should have
created a BOC for the full amount and prepared a disbursement for the auctioneer costs. In
addition, the post also did not claim a refund for the Value Added Tax (VAT) charged by the
auctioneer on commission and expenses, of approximately 11,000 ZAR ($1,500 USDE).

Without adequate oversight and accountability of property sales the post could not ensure sales
were properly conducted and that the Peace Corps received payments in timely manner. In the
November 20, 2012 Preliminary Report on the Audit of PC/Malawi, we recommended that the
Office of Management provide additional guidance for sales of property and vehicles, to include
adequate controls and oversight by post management to ensure the property sales are conducted
in compliance with agency policies and procedures.

        We recommend:

        8. That the director of operations and management formally enter an agreement for
           auction services to ensure the post is getting the best rate possible and that charges are
           valid and reasonable.

        9. That the director of management and operations ensure that property disposals are
           observed by staff, that the auctioneer provides documentation of all sales in a timely
           manner, and that auction records are reconciled to the post’s property records.

        10. That the director of management and operations develop controls to ensure that the
            proceeds of auction sales are remitted to the post in a timely manner after the auction
            is completed.


IMPREST FUNDS MANAGEMENT

The post did not adequately control access to the cashier cage and imprest funds.

MS 760 states that:

        Imprest funds must be stored in a U.S. government approved safe, preferably a cashier's or money safe,
        with a three-tumbler combination lock. The safe should be kept in a protected area, such as a sturdy
        enclosed room with a cashier's window designed to prevent people from reaching the safe or cash box.




Final Audit Report: Peace Corps/South Africa                                                                     8
During our review of cashiering operations we noted several security deficiencies for the cashier
cage and imprest fund. The cashier’s office door and the walk-in vault remained open during
non-cashier hours. The lock to the cashier’s vault was not functioning when we inspected the
cashier’s office; however, the post was able to have the lock to the vault repaired while we were
onsite.

The alternate cashier did not have a safe and kept approximately 40,000 ZAR ($5,000 USDE) in
a locked file cabinet (outside of the cashier cage), and conducted cashiering transactions from an
unsecured office. It is important to secure the imprest funds to prevent theft and loss.

        We recommend:

        11. That the country director schedule an inspection of the cash cage by the U.S.
            Embassy regional security officer.

        12. That the director of management and operations provide a safe for the alternate
            cashier.




Final Audit Report: Peace Corps/South Africa                                                     9
                             QUESTIONED COSTS AND
                          FUNDS TO BE PUT TO BETTER USE
We identified funds to be put to better use and questioned costs during the course of the audit.

                                       Funds to be Put to Better Use

    Recommendation
                                                    Description                        Amount
        Number

                            Unclaimed VAT charged by auctioneer on commission and
              9                                                                        $1,500
                            expenses.


                                               Questioned Costs

    Recommendation
                                                    Description                        Amount
        Number

              9
                            Inadequate support for auctioneer expenses and             $2,145
                            commission charges on property and vehicle sales.


The Inspector General Act defines funds put to better use and questioned costs as the following:

        Funds put to better use: funds that could be used more efficiently if management took
        actions to implement and complete the recommendation.

        Questioned costs: costs that are questioned because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement or document governing
        expenditure of funds; a finding that, at the time of the audit, such cost is not supported by
        adequate documentation; or a finding that the expenditure of funds for the intended
        purpose is unnecessary or unreasonable.




Final Audit Report: Peace Corps/South Africa                                                       10
                              LIST OF RECOMMENDATIONS
    We recommend:

    1. That the country director and the post’s Peace Corps medical officers ensure that the medical
       supplies are secured in compliance with Peace Corps policy.

    2. That the country director review the medical supply inventory quarterly to ensure that staff
       record medical supply transactions accurately and completely and that any differences noted
       during the physical count are reconciled and corrective actions are taken.

    3. That the country director work with the Office of Health Services to determine whether
       the locally developed medical inventory system is beneficial and in compliance with
       Peace Corps policy.

    4. That the country director ensure all controlled substances are properly received and
       recorded in a Drug Enforcement Agency log book.

    5. That the country director clarify the roles and responsibilities of medical and inventory
       staff, separate duties in accordance with Peace Corps policy, develop standard operating
       procedures and provide training to medical staff on the accountability of medical
       supplies.

    6. That the director of management and operations review and verify the information in
       BarTracks to ensure property is accurately and completely recorded.

    7. That the director of management and operations reconcile items in BarTracks with the
       records provided by the Office of the Chief Financial Officer and update key information
       including bar codes, serial numbers, and costs.

    8. That the director of operations and management formally enter an agreement for auction
       services to ensure the post is getting the best rate possible and that charges are valid and
       reasonable.

    9. That the director of management and operations ensure that property disposals are
       observed by staff, that the auctioneer provides documentation of all sales in a timely
       manner, and that auction records are reconciled to the post’s property records.

    10. That the director of management and operations develop controls to ensure that the
        proceeds of auction sales are remitted to the post in a timely manner after the auction is
        completed.

    11. That the country director schedule an inspection of the cash cage by the U.S. Embassy
        regional security officer.

    12. That the director of management and operations provide a safe for the alternate cashier.


Final Audit Report: Peace Corps/South Africa                                                         11
      APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of PC/South Africa covered fiscal years 2010, 2011, and 2012. While at the post, we
interviewed key staff including the CD, the director of management and operations, staff responsible
for administrative support, and the lead Peace Corps medical officer. We communicated issues and
areas of improvement to senior staff at post and Peace Corps management at headquarters and
included significant issues noted during our audit in this report. We primarily reviewed the following
processes and associated controls:

        Bills of collection
        Contracts and leases
        Cash and Non-cash payments
        Imprest fund
        Credit card transactions
        Information technology general controls
        Medical supplies
        Personal property and vehicles
        Personal services contracts
        Volunteer payments

Although we could not independently verify the reliability of all this information, we compared it
with other available supporting documents to determine data consistency and reasonableness. We
relied on the results of the annual Federal Information Security Management Act review, which did
not identify deficiencies with data reliability that would impact our audit. Based on these efforts, we
believe the information we obtained is sufficiently reliable for this report.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/South Africa                                                     12
                          APPENDIX B: LIST OF ACRONYMS
   BOC                            Bill of Collection
   CD                             Country Director
   DEA                            Drug Enforcement Agency
   FY                             Fiscal Year
   IT                             Information Technology
   MS                             Peace Corps Manual Section
   OCFO                           Office of Chief Financial Officer
   OIG                            Office of Inspector General
   OMS                            Office of Medical Service
   PC                             Peace Corps
   PCMO                           Peace Corps Medical Officer
   USDE                           U.S. Dollar Equivalent
   VAT                            Value Added Tax
   ZAR                            South African Rand




Final Audit Report: Peace Corps/South Africa                          13
            APPENDIX C: MANAGEMENT’S RESPONSE TO THE
                                     PRELIMINARY REPORT




Final Audit Report: Peace Corps/South Africa              14
                             APPENDIX D: OIG COMMENTS
Management concurred with all 12 recommendations. All 12 recommendations will remain open
pending confirmation from the chief compliance officer that the documentation identified in
management’s response has been received. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/South Africa                                               20
       APPENDIX E: AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION                        Lead Auditor Hal Nanavati and Senior Auditor Gabrielle
                                        Perret performed the audit of Peace Corps/South Africa.




                                        Bradley Grubb
                                        Assistant Inspector General for Audit

OIG CONTACT                             If you wish to comment on the quality or usefulness of this
                                        report to help us strengthen our product, please e-mail
                                        Assistant Inspector General for Audit Bradley Grubb, at
                                        bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/South Africa                                                          21
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 http://www.peacecorps.gov/OIG
            Twitter:               https://twitter.com/PCOIG
